TABLE OF CONTENTS
Appendices
A. Ninth Circuit Order denying
Certificate of Appealability,
August 22, 2019 ........................................... A1-A2
B. Ninth Circuit Opinion affirming in
part and reversing in part underlying
conviction (sub nom. United States v.
Garrido), Apr. 15, 2013 ............................. B1-B35
C. District Court for the Central District
of California Order denying
defendant’s motion for new trial or
reconsideration, June 17, 2014 ................. C1-C19
D. Ninth Circuit Memorandum Opinion
affirming denial of motion for new
trial or reconsideration, Oct. 11, 2017 ....... D1-D3
E. District for the Central District of
California in Chambers Order
denying § 2255 motion, July 25, 2018 ........ E1-E4
F. District for the Central District of
California Order denying certificate
of appealability, Sept. 13, 2018 ......................... F1

APPENDIX A
UNITED STATES COURT OF APPEALS,
NINTH COLUMBIA CIRCUIT
[FILED AUG 22 2019]
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ALBERT T. ROBLES, AKA Albert Tzareih Robles,
Defendant-Appellant.
No. 18-56250
D.C. Nos. 2:15-cv-00207-SVW
2:04-cr-01594-SVW-1
Central District of California, Los Angeles
ORDER
Before: SCHROEDER and PAEZ, Circuit Judges.
The request for a certificate of appealability
(Docket Entry No. 2) is denied because appellant has
not shown that “jurists of reason would find it debatable whether the [section 2255 motion] states a valid
claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also
28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S.
(A1)

A2

134, 140-41 (2012); Miller-El v. Cockrell, 537 U.S.
322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX B
713 F.3d 985
United States Court of Appeals,
Ninth Circuit.
United States of America, Plaintiff–Appellee,
v.
George GARRIDO, aka Jorge Arturo Garrido, Defendant–Appellant.
United States of America, Plaintiff–Appellee,
v.
Albert T. Robles, aka Albert Tzareih Robles; Alberto
Del Tzareih, Defendant–Appellant.
Nos. 06–50717, 06–50718.
Argued and Submitted Nov. 15, 2010.
Filed April 15, 2013.
Appeal from the United States District Court for the
Central District of California, Stephen V. Wilson,
District Judge, Presiding. D.C. Nos. CR–04–01594–
SVW–4, D.C. No. CR–04–01594–SVW–1.
Before: HARRY PREGERSON, JOHN T. NOONAN,
and RICHARD A. PAEZ, Circuit Judges.
(B1)

B2

OPINION
PREGERSON, Circuit Judge:
Albert T. Robles (“Robles”) appeals his convictions
for honest services mail and wire fraud (18 U.S.C.
§§ 1341, 1343, 1346), money laundering (18 U.S.C.
§ 1957), and bribery (18 U.S.C. § 666). George Garrido (“Garrido”) appeals his convictions for honest
services mail fraud (18 U.S.C. §§ 1341, 1346). We
have jurisdiction under 28 U.S.C. § 1291.
After Robles and Garrido were convicted and sentenced, and while their cases were on appeal, the Supreme Court in Skilling v. United States, – U.S. –,
130 S.Ct. 2896, 177 L.Ed.2d 619 (2010), narrowed the
scope of 18 U.S.C. § 1346 to include only honest services fraud based on bribery and kickback schemes.
Id. at 2933. The Court prohibited prosecutions (such
as those in this case) based on a failure to disclose a
conflict of interest as unconstitutionally vague. Id. at
2932. In light of Skilling, we reverse Robles’s and
Garrido’s honest services fraud convictions and reverse Robles’s money laundering *989 convictions.
We affirm Robles’s bribery convictions under 18
U.S.C. § 666 because such convictions do not require
the defendant to be engaged in an official act. Accordingly, we remand for further proceedings consistent
with this opinion.
I.
Following a jury trial, Robles was convicted of
twenty-one counts of honest services mail and wire
fraud (Counts 1–11, 13–17, 22–25, 27); four counts of

B3

money laundering (Counts 18–21); and five counts of
bribery (Counts 33–37). Garrido was convicted of five
counts of honest services mail fraud (22–25, 27).
Robles’s and Garrido’s convictions arose out of a
series of events that took place while Robles was
Treasurer of the City of South Gate, California. Robles was elected Treasurer in 1997 and reelected in
2001. He had previously served as Mayor and as an
elected member of the South Gate City Council. Garrido was a local businessman and friend of Robles’s.
Robles and Garrido were implicated in two schemes
to award city contracts to particular companies while
reaping substantial benefits for themselves.
A.

Sewer Repair and Housing
Schemes (Counts 1–21)

Project

The first scheme, charged against Robles alone,
involved two corporate entities: the Southland Companies, comprised of several housing development
corporations, and PSOMAS, an engineering consulting firm. The Southland Companies were developing
housing projects in South Gate, and PSOMAS was interested in sewer repair contracts in South Gate.
The indictment alleged that Robles used his influence as Treasurer to induce the Southland Companies and PSOMAS into hiring Robles’s friend Edward
Espinoza (“Espinoza”) as a consultant; directed the
city council to award contracts to the two companies;
and concealed or failed to disclose that portions of the

B4

city’s money paid to those companies was funneled to
Robles and to Robles’s friends and family.1
Counts 1 through 11 alleged that checks were
mailed from the City of South Gate to PSOMAS and
from PSOMAS to EM Ventures, a company that Espinoza owned and used to receive money from individuals and entities who did business with the City of
South Gate. Counts 13 through 15 and 17 charged
that wire transfers were made from three Southland
housing development projects to Espinoza, EM Ventures, and ETE & Associates, a financial advisory
firm that Espinoza owned and used to receive money
from individuals and entities who did business with
the City of South Gate.
Count 16 specifically alleged that Robles failed to
disclose in a 2002 California Form 700, Statement of
Economic Interests, that he received from Espinoza a
$65,000 platinum membership in the Anthony Robbins Foundation, a self-help motivational organization, and that Robles caused that Form 700 “to be
transmitted in interstate commerce by wire communications” by faxing it to Sacramento.2
1 The indictment alleged that the Southland Companies and
PSOMAS paid over $2 million from city contracts to Espinoza or
his companies. Espinoza in turn was alleged to have paid over
$1.4 million to Robles’s family and friends.

In 2002, elected officials in California had a duty to disclose
the source of gifts in excess of $50 on Form 700. See Cal. Gov’t
Code § 89503(f) (providing that the gift limit is adjusted every
odd-numbered year). A “gift” is “any payment that confers a personal benefit on the recipient, to the extent that consideration of
equal or greater value is not received....” Id. § 82028(a). A “gift”
2

B5

*990 Counts 18 through 21 charged Robles under
18 U.S.C. § 1957 with money laundering. Those
counts alleged that Robles used the money gained
from the honest services fraud to purchase property
in Mexico and for a platinum membership in the Anthony Robbins Foundation.
B. Waste–Hauling Contract Scheme (Counts
22–37)
The second scheme, charged against both Robles
and Garrido, alleged that Robles, while he was
Treasurer, caused the City of South Gate to award
improperly a waste-hauling contract to Michael
Klistoff’s (“Klistoff”) waste company, Klistoff & Sons.
Garrido and Klistoff had been friends for several
years before Garrido introduced Klistoff to Robles. In
1999, at Robles’s request, Klistoff began making
campaign contributions and gifts3 to Robles and Rodoes not include campaign contributions. Id. § 82028(b)(4).
“Contribution” is defined as “a payment ... except to the extent
that full and adequate consideration is received, unless it is
clear from the surrounding circumstances that it is not made for
political purposes.” Id. § 82015(a). A payment “made at the behest of a candidate is a contribution to the candidate unless ...
[i]t is clear from the surrounding circumstances that the payment was made for purposes unrelated to his or her candidacy
for elective office.” Id. § 82015(b)(2)(B). One type of payment
that is presumed to be for purposes unrelated to a candidate’s
candidacy for elective office is a payment “made principally for
personal purposes,” which “may be considered a gift.” Id. §
82015(b)(2)(B)(i).
In January 2000, Klistoff bought a personal computer and
computer software for Robles. In October and November 2000,
Klistoff wrote two checks to Pyramid Press for Citizens for Good
3

B6

bles’s general purpose committee, Citizens for Good
Government.4 Klistoff agreed to make these contributions because he knew Robles had influence in South
Gate and Klistoff was hoping to gain access to future
waste-hauling contracts.
About ten days before the March 2001 election,
Robles asked the then-current waste-hauling company for South Gate, Waste Management, whose contract with the city was set to expire in eight months,
to pay $15,000 worth of printing bills that Robles was
about to incur. Waste Management declined to pay
the bills because it was too late to report them as a
campaign contribution. After Robles was reelected
Treasurer, Robles told Waste Management that they
were not his friends and that, as far as Robles was
concerned, Waste Management was “out of town.”
Robles told Waste Management to go away quietly or
he would hurt the company in other cities.
In 2001, Klistoff told Garrido that he wanted
Klistoff & Sons to be awarded South Gate’s ten-year
Government. Also in November 2000, Klistoff made a partial
payment for a telephone switchboard system for Robles. In February 2001, Klistoff paid for copying expenses for Robles.
Klistoff made all of these payments at Robles’s request.
4 A general purpose committee is a committee that: (1) receives contributions totaling $1,000 or more in a calendar year,
and is “formed or exists primarily to support or oppose more
than one candidate or ballot measure”; (2) makes independent
expenditures of more than $1,000 per calendar year; or (3)
makes contributions totaling $10,000 in a calendar year at the
behest of candidates or committees. Cal. Gov’t Code §§ 82027.5,
82013(a)-(c).

B7

waste-hauling contract, worth about $48 million.
Garrido agreed to help Klistoff get the contract on the
conditions that: (1) Klistoff hired Garrido as a consultant for $350,000 per year for the duration of the
ten-year waste-hauling contract, and (2) Garrido’s recycling business would be cut in on the contract if it
was awarded to Klistoff & Sons.
*991 Robles met with Klistoff before South Gate
sent out its request for proposals for the wastehauling contract. Robles showed Klistoff the draft request for proposals, which called for one company to
perform residential services and three companies to
perform commercial waste-hauling services. Klistoff
suggested to Robles that one company could perform
both waste-hauling services. The final request for
proposals incorporated Klistoff’s suggestion and
called for a single company to perform both the residential and commercial services. Klistoff & Sons
submitted its bid for the waste-hauling contract in
June 2001.
In July 2001, Robles assigned his friend, Louis
Moret, to work on the city’s waste-hauling contract as
the facilitator for the bidding process. Moret presented the staff recommendation for the contract to the
city council and attended the meeting when the city
council voted to award the contract. Robles told Moret that “he had a horse in the race” and that horse
was Klistoff & Sons. Robles was concerned about
Klistoff’s ability to make a persuasive presentation to
the contract selection committee, so he asked Moret
to recommend a consultant to help Klistoff & Sons
prepare its oral presentation in support of its bid.

B8

Moret recommended Ray Garubo (“Garubo”) as a consultant. Shortly thereafter, Garrido contacted Klistoff
and advised him to hire Garubo as a consultant to
help Klistoff & Sons make an effective and convincing
presentation to city officials. Klistoff retained Garubo
as a consultant, but Garrido paid Garubo’s consulting
fees.5
Klistoff received information that no competing
company was given. Robles showed Klistoff the other
competing companies’ bids, even though the bids
were supposed to be confidential. Moreover, at Robles’s request, Moret provided Robles and Garubo
with a copy of the confidential questions that the selection committee would ask the bidders to answer
during oral presentations. None of the other bidders
were provided with these confidential questions in
advance of their oral presentations.
After the oral presentations, the selection committee voted to recommend that South Gate engage in
exclusive negotiations with Klistoff & Sons. The vote
was in part based on Klistoff’s oral presentation. The
city council approved the selection committee’s recommendation and ultimately awarded the $48 million waste-hauling contract to Klistoff & Sons.

5 Advising Klistoff to retain Garubo and paying Garubo’s consultant fees were the only services Garrido provided Klistoff
even though Klistoff agreed to pay Garrido $350,000 per year
for the life of the ten-year waste-hauling contract. Between 2002
and 2003, Klistoff made five payments to Garrido of $87,500
each, for a total of $437,500. Klistoff did not make any further
payments to Garrido.

B9

Counts 22 through 25 and 27 charged Robles and
Garrido with honest services mail fraud in connection
with the waste-hauling contract scheme. Count 22 is
based on California Form 700, Statement of Economic Interests, for calendar year 2000 in which Robles
failed to disclose the payments received from Klistoff
for a computer, software, and a telephone switchboard system. See supra note 3. The Form 700 was
mailed. Counts 23 through 25 are based on three
checks from Garrido’s business, GWS Nursery and
Supplies, Inc., received by Garubo for assisting
Klistoff & Sons in its efforts to obtain the wastehauling contract with South Gate.
Count 27 refers to a California Form 700, Statement of Economic Interests, for calendar year 2001,
in which Robles failed to disclose copying services
paid for by Klistoff on Robles’s behalf.
*992 Counts 33 through 37 were charged against
Robles alone. Robles was charged under 18 U.S.C. §
666 with accepting bribes from Klistoff in connection
with the waste-hauling contract.
C. Indictment and Trial
The government filed the original indictment
against Robles, Klistoff, and Espinoza in November
2004. It filed a First Superseding Indictment in December 2004, alleging forty counts against those
same defendants. On March 10, 2005, Espinoza pled
guilty to four counts of the First Superseding Indictment. On March 24, 2005, the government filed the
Second Superseding Indictment against Robles,
Klistoff, and Garrido. In June 2005, after Klistoff en-

B10

tered into a plea agreement, the government filed a
redacted Second Superseding Indictment which deleted Klistoff as a named defendant in the caption.
The redacted Second Superseding Indictment
charged Robles with twenty-one counts of honest services mail and wire fraud, four counts of money laundering, and five counts of bribery. Garrido was
charged with five counts of honest services mail
fraud.
A jury convicted Robles and Garrido on all counts
alleged in the redacted Second Superseding Indictment. The district court sentenced Robles to ten
years in prison, fines, and restitution. Garrido was
sentenced to fifty-one months in prison, fines, and
restitution. Robles and Garrido timely appealed.
II.
A. Robles’s and Garrido’s 18 U.S.C. § 1346
Honest Services Fraud Convictions
Robles was convicted of honest services mail and
wire fraud on Counts 1 through 11, 13 through 17, 22
through 25, and 27. Garrido was convicted of honest
services mail fraud on Counts 22 through 25, and 27.
Honest services mail and wire fraud cases “rel[y] on
the idea that ‘a public official acts as trustee for the
citizens and the State ... and thus owes the normal
fiduciary duties of a trustee, e.g., honesty and loyalty
to them.’ ”6 United States v. Kincaid–Chauncey, 556
The indictment alleged that South Gate’s public officials’
“duty of honest services included the following obligations: (a) to
act as trustees for the citizens, and in the best interests of the
6

B11

F.3d 923, 939 (9th Cir.2009) (quoting United States v.
Silvano, 812 F.2d 754, 759 (1st Cir.1987)).
1. Honest Services Fraud Before and After
Skilling
Before 1987, the government prosecuted honest
services fraud cases under 18 U.S.C. §§ 1341 (mail
fraud) and 1343 (wire fraud). United States v.
Weyhrauch, 548 F.3d 1237, 1243 (9th Cir.2008), vacated and remanded on other grounds, ––– U.S. ––––,
130 S.Ct. 2971, 177 L.Ed.2d 705 (2010); United States
v. Bruno, 809 F.2d 1097, 1099, 1104–05 (5th
Cir.1987). Sections 1341 and 1343 “criminalize the
use of the mails or wires in furtherance of ‘any
scheme or artifice to defraud, or for obtaining money
or property by means of false or fraudulent pretenses,
representations, or promises.’ ” *993 Skilling v. United States, ––– U.S. ––––, 130 S.Ct. 2896, 2908 n. 1,
177 L.Ed.2d 619 (2010) (quoting §§ 1341 and 1343).
Although those statutes prohibit the use of the
mails or wire services to perpetrate fraudulent
schemes to deprive others of “money or property,” our
court and other courts interpreted the statutes to apply to the deprivation of the public’s “intangible
public, without pursuing their own personal interests; (b) to
conduct election campaigning and fundraising activities openly
and free from fraud and dishonesty; (c) to refrain from taking official action on any matter in which they might have a direct or
indirect financial interest without first disclosing any such interest to the public; and (d) to abide by the laws of the United
States, the laws of the State of California, and the laws of the
City of South Gate.”

B12

rights” to public officials’ honest services. United
States v. Milovanovic, 678 F.3d 713, 720 (9th
Cir.2012) (en banc); Weyhrauch, 548 F.3d at 1243; see
also Bruno, 809 F.2d at 1105 (stating citizens “may
be defrauded of nonpecuniary interests” such as the
“honest services of [their] public officials”); United
States v. Gray, 790 F.2d 1290, 1295 (6th Cir.1986)
(explaining “the ‘intangible rights’ theory is anchored
upon the defendant’s misuse of his public office for
personal profit”); United States v. Keane, 522 F.2d
534, 549 (7th Cir.1975) (noting “the mail fraud statute in this circuit has been used ... to prosecute public
officials for ... depriving their constituents of their
right to loyal, faithful and honest public service”);
United States v. States, 488 F.2d 761, 765 (8th
Cir.1973) (holding a fraudulent scheme may “deceive
and defraud the public ... of certain intangible political and civil rights”).
In 1987, however, the Supreme Court held that
§ 1341 was limited to protecting property rights, and
suggested that “[i]f Congress desires to go further, it
must speak more clearly than it has.” McNally v.
United States, 483 U.S. 350, 360, 107 S.Ct. 2875, 97
L.Ed.2d 292 (1987). Congress responded by inserting
§ 1346 into the federal criminal code the following
year. Skilling, 130 S.Ct. at 2927; see also Act of Nov.
18, 1988, Pub. L. 100–690, 102 Stat. 4181, 4508
(1988) (codified at 18 U.S.C. § 1346). By enacting §
1346, Congress “meant to reinstate the body of preMcNally honest services law.” Skilling, 130 S.Ct. at
2929 (citation and internal quotation marks omitted).
Section 1346 “defines the term ‘scheme or artifice to

B13

defraud’ ” for the purposes of honest services mail
and wire fraud “to include ‘a scheme or artifice to deprive another of the intangible right of honest services.’ ” Id. at 2908 n. 1 (quoting § 1346).
Following the enactment of § 1346, courts around
the country interpreted the statute to encompass various types of schemes and to make criminal a wide
variety of acts. See, e.g., Weyhrauch, 548 F.3d at
1243–44 (listing cases); United States v. Walker, 490
F.3d 1282, 1297 (11th Cir.2007) (noting that “[t]he
scope of conduct covered by the honest services mail
fraud statute is extremely broad”). But see United
States v. Brumley, 116 F.3d 728, 734 (5th Cir.1997)
(holding violation of § 1346 requires that “a state official breached a duty respecting the provision of services owed to the official’s employer under state
law”). The Ninth Circuit recognized two theories of
honest services fraud: (1) bribery and (2) failure to
disclose a material conflict of interest. Kincaid–
Chauncey, 556 F.3d at 942. The prosecution of Robles
and Garrido proceeded under that framework.
After Robles’s and Garrido’s trial, the Supreme
Court granted certiorari in the Fifth Circuit case
United States v. Skilling, 554 F.3d 529 (5th Cir.2009),
to determine whether a public official may be convicted of honest services fraud for failing to disclose
material information. See Skilling v. United States,
558 U.S. 945, 130 S.Ct. 393, 175 L.Ed.2d 267 (2009).
In deciding Skilling, the Supreme Court limited
the reach of § 1346. The Court held that § 1346 criminalizes only bribery and kickback schemes, not fail-

B14

ures to disclose a conflict of interest. Skilling, 130
S.Ct. at 2933. Thus, by limiting § 1346 to bribery and
kickback schemes, and prohibiting § 1346 prosecutions based on a failure *994 to disclose a conflict of
interest, Skilling changed the applicable analysis
that applies to the present appeal.7 The question after Skilling is whether Robles and Garrido were indicted, tried, and convicted of honest services fraud
based on a proper bribery or kickback theory, or
whether they were indicted, tried, and convicted on
the unconstitutional undisclosed conflict of interest
theory.
2. The Impact of Skilling
On appeal, the parties have submitted changing
arguments as to whether Robles and Garrido were
charged with schemes involving bribery and kickbacks or involving undisclosed conflicts of interest.
Before Skilling, Robles and Garrido argued that the
government’s case was founded only on a bribery theory, and that the government’s evidence was insufficient to support their convictions. The government
disagreed, insisting that its case was rooted in Robles’s failure to disclose a conflict of interest. In support of its contention, the government highlighted the
district court’s finding that the indictment, viewed as
a whole, alleged a scheme based on an undisclosed
conflict of interest.

7 Following the Supreme Court’s decision in Skilling, the parties filed supplemental briefs addressing the impact of that case
on the issues raised in this appeal.

B15

After Skilling, however, the parties traded positions. Robles and Garrido now argue that the indictment, and the convictions resulting from it, alleged
only a failure to disclose a conflict of interest. On the
other hand, the government now argues that the indictment is based on bribery and kickbacks. The government also argues that the district court’s instructions on the failure to disclose theory, while erroneous, did not affect Robles’s and Garrido’s substantial
rights because the schemes alleged in the indictment
“involved both bribes and kickbacks.”
3. Standard of Review
“[C]onstitutional error occurs when a jury is instructed on alternative theories of guilt and returns a
general verdict that may rest on a legally invalid theory.” Skilling, 130 S.Ct. at 2934 (citing Yates v. United States, 354 U.S. 298, 77 S.Ct. 1064, 1 L.Ed.2d
1356 (1957)). “Any omission or misstatement of an element of an offense in the jury instructions is constitutional error and, therefore, requires reversal unless
we find the error ‘harmless beyond a reasonable
doubt.’ ” United States v. Kilbride, 584 F.3d 1240,
1247 (9th Cir.2009) (quoting Chapman v. California,
386 U.S. 18, 24, 87 S.Ct. 824, 17 L.Ed.2d 705 (1967)).
Where there was no objection at trial, however, we
review jury instructions for plain error. Id. “A plain
error that affects substantial rights may be considered even though it was not brought to the court’s attention.” Fed.R.Crim.P. 52(b). “To notice error under
Rule 52(b), we must find that (1) there is ‘error’; (2) it
was ‘plain’; and (3) the error affected ‘substantial
rights.’ ” United States v. Recio, 371 F.3d 1093, 1100

B16

(9th Cir.2004) (quoting United States v. Olano, 507
U.S. 725, 732–35, 113 S.Ct. 1770, 123 L.Ed.2d 508
(1993)). Even if these three conditions are met, the
court may reverse the district court only if the error “
‘seriously affects the fairness, integrity or public reputation of judicial proceedings.’ ” Id. (quoting Olano,
507 U.S. at 736, 113 S.Ct. 1770).
4. The Jury Instructions on Undisclosed Conflicts of Interest were Erroneous and the
Error was Plain
The parties agree that the first two prongs of the
plain error test are satisfied. An error is plain if it is
clearly inconsistent with established law at the time
of appellate *995 consideration. Johnson v. United
States, 520 U.S. 461, 468, 117 S.Ct. 1544, 137
L.Ed.2d 718 (1997); see also Henderson v. United
States, ––– U.S. ––––, 133 S.Ct. 1121, 1130, 185
L.Ed.2d 85 (2013) (holding “whether a legal question
was settled or unsettled at the time of trial, ‘it is
enough that an error be ‘plain’ at the time of appellate consideration.’ ” (quoting Johnson, 520 U.S. at
468, 117 S.Ct. 1544)).
The court instructed the jury on the mail and wire
fraud counts as follows:
In order for defendants Robles and Garrido
to be found guilty of [mail or wire fraud], the
government must prove each of the following
four elements beyond a reasonable doubt:
First, the defendant knowingly made up or
participated in a scheme or plan to deprive the

B17

City of South Gate and its citizens of their
right to the honest services of their elected officials.... Secondly, the defendant acted with
the intent to defraud, that is, the intent to deprive the City of South Gate and its citizens of
their right to the honest services of their elected officials.... Third, the defendant used a material falsehood or omitted material information.... Fourth, the defendant used, or
caused someone to use, the mails [or a wire
communication] in interstate commerce to carry out or attempt to carry out the scheme or
plan.
Trial Tr. 1922–1925, July 26, 2005.
The court defined the intent to defraud the public
of honest services as follows:
Public officials and public employees inherently owe a duty to the public to act in the
public’s best interest. If, instead, the official
acts or makes his decision based on the official’s own personal interests, such as accepting
a bribe, taking a kickback, or receiving a benefit from an undisclosed conflict of interest, the
official has defrauded the public of the official’s honest services even though the city may
not suffer any monetary loss in the transaction.
Trial Tr. 1925–26, July 26, 2005 (emphasis added).
Thus, the jury instructions improperly allowed a
conviction where “the official acts or makes his deci-

B18

sion based on the official’s own personal interests,
such as accepting a bribe, taking a kickback, or receiving a benefit from an undisclosed conflict of interest ....” Trial Tr. 1925, July 26, 2005 (emphasis added). Because the district court’s instructions permitted the jury to convict Robles and Garrido on Skilling’s now unconstitutional failure to disclose theory,
there was error and the error was plain.
5. The Error Affected the Appellants’ Substantial Rights
An error affects substantial rights if there is “a
reasonable probability that the error affected the outcome of the trial.” United States v. Marcus, 560 U.S.
258, 130 S.Ct. 2159, 2164, 176 L.Ed.2d 1012 (2010).
To determine if the error affected the outcome of the
trial, “we consider ‘all circumstances at trial including the strength of the evidence against [the] defendant.’ ” United States v. Chambers, 918 F.2d 1455,
1459 (9th Cir.1990) (alteration in original) (quoting
United States v. Wagner, 834 F.2d 1474, 1485 (9th
Cir.1987)). We “review the jury instructions as a
whole,” not only the erroneous instructions. Kincaid–
Chauncey, 556 F.3d at 946. We may also examine the
arguments made by the parties. See Chapman, 386
U.S. at 25, 87 S.Ct. 824 (noting that the prosecutor’s
argument repeatedly relied on an error of law).
After reviewing the trial record as a whole, we
conclude that there is a reasonable *996 probability
that the jury convicted Robles and Garrido of honest
services fraud based on their failure to disclose a conflict of interest. Because of the emphasis on the con-

B19

flict of interest theory in the jury instructions and in
the closing arguments, we find that the error affected
the Appellants’ substantial rights.
a. The Indictment
We find the indictment ambiguous at best. It arguably encompasses both theories of honest services
fraud: (1) bribery and kickbacks, and (2) a failure to
disclose a conflict of interest. The vast majority of the
allegations appear to support only an undisclosed
conflict of interest.8 Nevertheless, because the indictment could be read to at least imply a bribery or
kickback scheme, it is not possible to conclude on the
basis of the indictment alone which theory or theories
the jury may have embraced in rendering a guilty
verdict on the § 1346 honest services charges.
b. The Jury Instructions
The district court’s § 1346 jury instructions included only a single reference to bribery and kickbacks in
its example of schemes that could amount to honest
8 The indictment lists several state and local disclosure laws
pertaining to public officials. It also alleges schemes involving
failures to disclose various conflicts of interest, including Robles’s failure to disclose at least $65,000 in financial benefits
(i.e. a platinum membership in the Anthony Robbins Foundation) that he received from Espinoza; Robles’s failure to disclose
to the city council the financial benefit he and his friends and
family would receive from the Southland Companies and PSOMAS city contracts; Robles’s failure to disclose the financial
benefit his friend Garrido would receive from the contract
granted by the city to Klistoff & Sons; and Robles’s failure to report Klistoff’s access to the confidential interview questions and
confidential bids.

B20

services fraud (“accepting a bribe, taking a kickback,
or receiving a benefit from an undisclosed conflict of
interest”). The overwhelming weight of the instructions support only the undisclosed conflict of interest
theory, rather than a bribery or kickback theory. The
transcript of the jury instructions devoted nine pages
to state and local laws governing a public official’s
duty to disclose various contributions, gifts, and conflicts of interest.
In contrast to the detailed discussion of the failure
to disclose theory, the district court did not define either “bribery” or “kickback” in the § 1346 context.
Although bribery was defined in the 18 U.S.C. § 666
jury instructions, § 666 does not require a jury to find
a specific quid pro quo. See United States v. McNair,
605 F.3d 1152, 1187–89 (11th Cir.2010) (concluding
that § 666 does not require a specific quid pro quo );
see also id. at 1189 (collecting cases from other circuits which hold that § 666 does not require a quid
pro quo ).9 A quid pro quo in *997 bribery is the “spe9 McNair lists the following cases in support of its holding
that § 666 does not require a quid pro quo:

United States v. Abbey, 560 F.3d 513, 520 (6th Cir.),
cert. denied, 558 U.S. 1051, 130 S.Ct. 739, 175 L.Ed.2d
520 (2009) (stating “the text says nothing of a quid pro
quo requirement to sustain a conviction” and “while a
quid pro quo of money for a specific legislative act is sufficient to violate [§ 666(a)(1)(B) or (a)(2) ], it is not necessary”) (quotation marks omitted); United States v.
Gee, 432 F.3d 713, 714–15 (7th Cir.2005) (holding that
“[a] quid pro quo of money for a specific legislative act”
is not necessary under § 666(a)(1)(B) and that an exchange of money for the official’s “influence” was

B21

cific intent to give or receive something of value in
exchange for an official act.” United States v. Sun–
Diamond Growers of California, 526 U.S. 398, 404–
05, 119 S.Ct. 1402, 143 L.Ed.2d 576 (1999). Section
1346 honest services convictions on a bribery theory,
on the other hand, require at least an implied quid
pro quo.10 Kincaid–Chauncey, 556 F.3d at 943; see
Section III.A. below for further discussion.
enough); United States v. Agostino, 132 F.3d 1183, 1190
(7th Cir.1997) (“We decline to import an additional, specific quid pro quo requirement into the elements of
§ 666(a)(2).”); but see United States v. Jennings, 160
F.3d 1006, 1014 (4th Cir.1998) (concluding the “corrupt
intent” element in § 666 requires the government to
prove a quid pro quo, but stating the “quid pro quo requirement is satisfied so long as the evidence shows a
‘course of conduct of favors and gifts flowing to a public
official in exchange for a pattern of official actions favorable to the donor’ ” and “the intended exchange in
bribery can be ‘this for these’ or ‘these for these,’ not just
‘this for that’ ” (citations omitted)).
McNair, 605 F.3d at 1189 (alterations in original).
Robles was convicted on a separate substantive count of
bribery in violation of 18 U.S.C. § 666. However, proving bribery
under § 666 does not necessarily prove bribery under § 1346
honest services fraud because the government must prove at
least an implied quid pro quo to prove bribery under § 1346, but
the government does not need to prove a quid pro quo under
§ 666 bribery. Thus, if the government did not prove a quid pro
quo, the jury could not have convicted Robles of bribery under
§ 1346 honest services fraud, but the jury could still have convicted Robles of bribery under § 666. Therefore, we cannot extrapolate from Robles’s § 666 bribery conviction that the jury
convicted Robles of § 1346 honest services fraud on a bribery
theory (as opposed to an undisclosed conflict of interest theory).
Cf. United States v. Wilkes, 662 F.3d 524, 544 (9th Cir.2011)
10

B22

There is evidence in the record that could support
a bribery or kickback conviction. Appellants do not
dispute that payments and in-kind contributions
were made to Robles’s family and friends, including
Garrido. For example, Espinoza testified that Robles
instructed him to funnel well over half of the proceeds of his city contract to Robles’s sister-in-law.
Nevertheless, it is impossible to conclude that the jury convicted Robles and Garrido based on their participation in either a bribery or a kickback scheme instead of based on Skilling’s unconstitutional failure
to disclose a conflict of interest.
c. The Closing Arguments
The prosecutor’s closing argument leaves little
doubt that its case focused almost entirely on a failure to disclose theory. The prosecutor repeatedly invoked the public’s right to know when its public officials stand to benefit from expenditures of public
funds. Although the prosecutor referred to financial
arrangements between Robles and certain contractors (e.g. the Southland Companies, PSOMAS, and
Klistoff & Sons), the prosecutor did not argue that
they were the building blocks of a bribery or kickback
scheme. Rather, such financial arrangements were
consistently offered to show that Robles had conflicts
(holding that the jury’s conviction of Wilkes on a separate substantive count of bribery under another statute, 18 U.S.C. § 201,
“confirms beyond any reasonable doubt that the jury would have
convicted” Wilkes under § 1346 honest services fraud on a bribery theory because § 201, like § 1346 bribery, requires proof of a
quid pro quo ).

B23

of interest which were never disclosed to the voters or
to other officials of the City of South Gate. Thus, the
prosecutor’s closing argument strongly suggests that
the case was presented to the jury as a failure to disclose a conflict of interest, which is precisely what the
Supreme Court found unconstitutional in Skilling.
Similarly, the transcript from Robles’s closing argument suggests he believed he was fighting undisclosed conflict of interest charges. His closing argument focused almost entirely on whether he had a
duty to disclose the payments, whether the payments
fell within the ambit of state or local *998 conflict of
interest provisions, and whether the payments were
political “contributions” (which were not required to
be disclosed on Robles’s personal conflict of interest
Form 700) or whether they were “gifts” (which had to
be disclosed).
The indictment, the jury instructions, and the closing arguments at trial were permeated with the prohibited failure to disclose theory. Upholding the convictions where neither the government nor the Appellants argued their cases on a constitutionally valid
theory constitutes a miscarriage of justice which
would “seriously affect[ ] the fairness, integrity or
public reputation of judicial proceedings.” Marcus,
130 S.Ct. at 2164. Thus, Appellants have met their
burden under the plain error standard of review to
show that there was a reasonable probability that the
instructional error affected the outcome of the trial
and that the error seriously affected the fairness, integrity or public reputation of judicial proceedings.

B24

Therefore, we reverse Robles’s honest services mail
and wire fraud convictions and reverse Garrido’s
honest services mail fraud convictions. Furthermore,
Counts 16, 22, and 27 fail for additional reasons,
which we turn to now.
B. Robles’s § 1346 Honest Services Conviction
on Count 16 and Robles’s and Garrido’s §
1346 Honest Services Convictions on
Counts 22 and 27
Robles’s § 1346 conviction on Count 16 and Robles’s and Garrido’s § 1346 convictions on Counts 22
and 27 were each based on a failure to disclose a conflict of interest in a California Form 700, Statement
of Economic Interests, disclosure form. Pursuant to
Skilling, failure to disclose a conflict of interest in a
state disclosure form cannot support a § 1346 honest
services conviction. See Section II.A. above.
Moreover, as the government concedes, there is insufficient evidence to support the convictions on
Counts 16 and 27 under any theory. Count 16 alleged
that Robles failed to disclose that he received from
Espinoza a $65,000 platinum membership in the Anthony Robbins Foundation. Purely intrastate telephone calls fall outside the reach of wire fraud under
§ 1343. United States v. Izydore, 167 F.3d 213, 219–
20 (5th Cir.1999). Because the form was faxed from
South Gate, California to Sacramento, California, the
government concedes that we should reverse Robles’s
conviction on Count 16 because the government never proved that the form traveled in interstate commerce.

B25

Count 27 refers to a California Form 700 signed by
Robles on April 2, 2002 for calendar year 2001, in
which Robles failed to disclose a gift of copying services received from Klistoff. The government also
concedes that we should reverse the Count 27 conviction because there was insufficient evidence that the
copying services were gifts.
Because these convictions cannot be upheld postSkilling, we reverse Robles’s conviction on Count 16
and Robles’s and Garrido’s convictions on Counts 22
and 27.
C. Robles’s § 1957 Money Laundering Convictions
Because we reverse Robles’s § 1346 honest services
mail and wire fraud convictions, his convictions on
Counts 18 through 21 for money laundering under 18
U.S.C. § 1957 must also be reversed. Convictions under § 1957 require the government to prove that the
offender “engage[d] or attempt[ed] to engage in a
monetary transaction in criminally derived property
... derived from specified unlawful activity.” 18 U.S.C.
§ 1957(a). The *999 indictment alleged that the
“criminally derived property” was money derived
from Robles’s honest services fraud. Accordingly, because the § 1346 honest services convictions were
constitutionally defective under Skilling, so too were
the § 1957 convictions.

B26

III.A. Robles’s 18 U.S.C. § 666 Bribery Convictions (Counts 33–37)
Counts 33 through 37 charged Robles alone with
bribery in violation of 18 U.S.C. § 666 in connection
with the waste-hauling contract.11 Robles contends
that § 666 requires a quid pro quo—a specific intent
to receive a bribe in exchange for an official act. Robles argues that there was insufficient evidence to
convict him of bribery under § 666 because there is no
evidence that he intended to be, or even could have
been, influenced in his performance of one of his official duties. Robles claims that, as Treasurer of South
Gate, he did not have the authority to approve the
waste-hauling contract; rather that authority was
vested in the city council. Moreover, as Treasurer, he
was required to disburse monies properly approved
by the city.12

11 The Indictment charged Robles with “corruptly accept[ing]
and agree[ing] to accept ... payments for goods and services and
campaign contributions from Michael Klistoff and All City Services, intending to be influenced and rewarded in connection
with a transaction of [a local government] ... namely, the awarding of a multiple-year refuse collection and recycling contract in
South Gate worth approximately $48 million.”

The South Gate Municipal Code provides that “[t]he primary function of the city treasurer is to disburse monies on demand which have been properly audited and approved, such
that once the proper procedures have been followed, the duty of
the city treasurer to disburse the funds is mandatory and not
discretionary.” South Gate Municipal Code § 1.05.050(A) (emphasis added). The treasurer is also responsible for receiving
cash receipts and depositing them into the appropriate city ac12

B27

“ ‘Claims of insufficient evidence are reviewed de
novo.’ ” United States v. Sullivan, 522 F.3d 967, 974
(9th Cir.2008) (quoting United States v. Shipsey, 363
F.3d 962, 971 n. 8 (9th Cir.2004)). There is sufficient
evidence if, “after viewing the evidence in the light
most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the
crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979).
Section 666 concerns bribery in connection with
state and local entities receiving federal funds. An official violates § 666 if the official “corruptly solicits or
demands for the benefit of any person, or accepts or
agrees to accept, anything of value from any person,
intending to be influenced or rewarded in connection
with any business, transaction, or series of transactions” of an entity (in this case, the City of South
Gate), if the exchange involves at least $5,000 and
the entity receives federal funds in excess of $10,000.
18 U.S.C. § 666(a)(1)(B), (b). The purpose of the statute is to “protect federal funds by preserving the integrity of the entities that receive the federal funds.”
United States v. Simas, 937 F.2d 459, 463 (9th
Cir.1991) (citing United States v. Westmoreland, 841
F.2d 572, 578 (5th Cir.1988)).
Robles’s argument that § 666 requires an official
act “confuses influence with [the] power to act unilat-

count. Id. at § 1.05.050(B). This duty is not a “policy decision,”
but is instead “administrative and ministerial.” Id.

B28

erally.” United States v. Gee, 432 F.3d 713, 715 (7th
Cir.2005). A jury could reasonably find that Robles
intended to be influenced *1000 in connection with
the city’s award of the waste-hauling contract even
though the authority to award the contract was not
part of Robles’s official duties. The government presented evidence that Robles showed Klistoff a draft
request for proposals for the contract, and that the
final request for proposals incorporated Klistoff’s
suggestion that the waste-hauling contract award
one company both residential and commercial wastehauling services. Robles assigned his friend Moret to
work as facilitator for the bidding process for the
waste-hauling contract. Robles further instructed
Moret that his “horse in the race” was Klistoff &
Sons. During the selection process, Robles communicated with Moret frequently and Moret told Robles
information that was not available to the public. Robles requested that Moret recommend a consultant to
assist Klistoff & Sons in its presentation for the bid,
but he did not request assistance for any other bidders. Klistoff & Sons hired the recommended consultant. Robles showed Klistoff the other companies’
competing bids, even though the information was
confidential during the bidding process. Moret provided Robles and Klistoff & Son’s consultant the confidential questions the selection committee would ask
the bidders in advance of the presentations, an advantage no other bidder received. Thus, there was
ample evidence that Robles accepted bribes from
Klistoff with the intention to be influenced in connection with the waste-hauling contract. Robles indeed

B29

used his considerable influence exclusively for
Klistoff’s benefit. Klistoff & Sons was awarded the
contract despite not being the lowest bidder.
In support of his argument that § 666 requires the
government to prove that Robles intended to be influenced in connection with an official act as treasurer,
Robles urges the court to adopt the standards articulated in United States v. Sun–Diamond Growers of
California, 526 U.S. 398, 119 S.Ct. 1402, 143 L.Ed.2d
576 (1999). We find Sun–Diamond inapposite. Sun–
Diamond concerned a separate federal statute, 18
U.S.C. § 201, and the reasoning for requiring an official act under § 201 is inapplicable to § 666. Section
201(b) defines bribery as the act of giving, offering, or
promising something of value in order “to influence
any official act” or receiving something of value in return for “being influenced in the performance of any
official act.” 18 U.S.C. § 201(b)(1)(A), (2)(A); Sun–
Diamond, 526 U.S. at 404, 119 S.Ct. 1402. The term
“official act” is expressly and broadly defined in § 201
as “any decision or action on any question, matter,
cause, suit, proceeding or controversy, which may at
any time be pending, or which may by law be brought
before any public official, in such official’s official capacity, or in such official’s place of trust or profit.” 18
U.S.C. § 201(a)(3). Bribery under § 201(b), therefore,
expressly requires “a quid pro quo—a specific intent
to give or receive something of value in exchange for
an official act.” Sun–Diamond, 526 U.S. at 404–05,
119 S.Ct. 1402.
Importantly, Sun–Diamond was primarily concerned with limiting the scope of illegal gratuities

B30

under § 201(c). Id. at 405–14, 119 S.Ct. 1402. Because § 201(c) criminalizes the giving of “anything of
value,” with no threshold monetary requirement, underlying Sun–Diamond was a need to distinguish between illegal gratuities and “token gifts” given “by
reason of the recipient’s mere tenure in office.” Id. at
406, 408, 119 S.Ct. 1402. Thus, requiring an official
act under § 201(c) was necessary because “a contrary
holding would criminalize a wide array of presumptively legal gift giving, like giving officials a hat or a
hot dog.” United States v. Abbey, 560 F.3d 513, 521
(6th Cir.2009) (discussing the reasoning in Sun–
Diamond ). Under *1001 § 201(c), an official act is
therefore the “limiting principle” that distinguishes
“an illegal gratuity from a legal one.” United States v.
Ganim, 510 F.3d 134, 146 (2d Cir.2007).
Section 666, on the other hand, makes no mention
of an “official act” or a requirement that anything be
given in exchange or return for an official act. Section
666 does not define or even use the term “official act.”
Section 666 “sweeps more broadly than either §
201(b) or (c).” McNair, 605 F.3d at 1191. Because the
plain language of § 666 does not use the term “official
act,” we must not insert that term into our reading of
the statute. Id. at 1192 (noting that defendants failed
“to show that the statutory language criminalizes innocent behavior”). Moreover, the need for a “limiting
principle” to distinguish between illegal and legal
gratuities, as expressed in Sun–Diamond, is “not relevant [to violations of § 666] because § 666 contains
both a corrupt intent requirement and a requirement
that the illegal gift or bribe be worth over $5,000.”

B31

Abbey, 560 F.3d at 521. Thus, we decline to adopt
§ 201‘s official act requirement for § 666.
In so holding, we join our sister circuits, the Third,
Sixth, Seventh, and Eleventh Circuits, who have all
held § 666 does not require that a bribe be given or
received with the intent to influence the public official in an official act.13 See United States v. Andrews,
681 F.3d 509, 529–530 (3d Cir.2012) (holding that for
a conviction under § 666, Harris “did not have to possess actual authority over the business, transaction,
or series of transactions, that Andrews sought to influence[;] [r]ather, the Government had to prove only
that Andrews intended, by offering a bribe to Harris,
to influence the sewer contract” (citation omitted));
McNair, 605 F.3d at 1191 (explaining § 666 “requires
only that money be given with intent to influence or
reward a government agent ‘in connection with any
business, transaction, or series of transactions,’ ” and
“does not say ‘official act’ ”); Abbey, 560 F.3d at 515,
13 Robles cites to several cases from the Second Circuit in
support of his argument that § 666 requires a quid pro quo, an
exchange for a specific official act. Most of our sister circuits,
however, have rejected the argument that § 666 requires a quid
pro quo. See McNair, 605 F.3d at 1187–88; Abbey, 560 F.3d at
520–21; Gee, 432 F.3d at 714–15; see also United States v.
Boender, 649 F.3d 650, 654 (7th Cir.2011) (noting that the Seventh Circuit “like most others, does not require a specific quid
pro quo ” under § 666); supra n. 9. Moreover, it is possible for a
court to require a quid pro quo but not require that the exchange be for a specific official act. See United States v. Redzic,
627 F.3d 683, 692 (8th Cir.2010) (stating “the government must
present evidence of a quid pro quo, but an illegal bribe may be
paid with the intent to influence a general course of conduct”).

B32

519–21 (affirming § 666 conviction where the government asserted that “Abbey used his influence and
position to assist Rizzo with several land developments” but “did not introduce any evidence establishing that ... Rizzo and Abbey had an express agreement for a specific official act to be done in return for
Rizzo’s gift”); Gee, 432 F.3d at 715 (affirming § 666
conviction where a jury could find that “money ... was
exchanged for George’s influence” in directing contracts towards the organization, because even though
George did not have the power to award the contracts
“George had plenty of clout and used it to [the organization’s] benefit”).
Although Second Circuit cases refer to bribery in
connection with an official act, the Second Circuit has
not squarely held that official acts or duties are required for a § 666 conviction.14 In United States v.
*1002 Ford, the court stated that the defendant “accepted [free media] services ‘intending to be influenced’ in her official duties.” 435 F.3d 204, 212 (2nd
Cir.2006) (emphasis added). The primary focus of
Ford, however, was addressing whether the jury was
properly instructed that the “recipient [of the bribe]
must have accepted the thing of value while ‘intending to be influenced.’ ” Id. at 212–14. Although Ford
suggests that the word “corruptly” in § 666 implies a
breach of some official duty, id. at 211, the Eleventh
14 In Ganim, the Second Circuit “presume[d] that the same
standard for proving a quid pro quo exists under both 18 U.S.C.
§ 666 and § 201(b)(1), as neither party ha[d] argued that there
is, or should be, any difference....” Ganim, 510 F.3d at 148 n. 7.

B33

Circuit has interpreted the word “corruptly” to mean
“dishonestly seeking an illegal goal or a legal goal illegally.” McNair, 605 F.3d at 1188. We agree with the
Eleventh Circuit that “[t]he requirement of a ‘corrupt’
intent in § 666 ... narrow[s] the conduct that violates
§ 666 but does not impose a specific quid pro quo requirement.” Id. at 1188.
In United States v. Bonito, the Second Circuit upheld a jury instruction which “made clear that the
corrupt agreement, offer or payment must precede
the official act to be influenced or rewarded.” 57 F.3d
167, 171 (2nd Cir.1995) (emphasis added). Bonito assumes “official duties” are appropriate in a jury instruction, but the court had no occasion to address
the issue because that particular term was not in
dispute. Id. at 171–74. Further, the court’s affirmance of Bonito’s § 666 conviction suggests that the
court did not require that the public official have actual authority over the business Bonito sought to influence—there, the purchase of Bonito’s property. Rather, much like Robles did here, the public official
Bonito bribed “undertook a range of activities that
inhered to Bonito’s financial benefit” which included
setting up meetings for Bonito, becoming involved in
negotiations for the purchase of Bonito’s property,
and contacting officials “to push the deal through.”
Id. at 170, 174. There was no evidence that demonstrated that the public official alone could approve
the purchase of Bonito’s property. Id. at 173–74; see

B34

also United States v. Bahel, 662 F.3d 610, 637–38 (2d
Cir.2011) (discussing Ford and Bonito ).15
For the foregoing reasons, we are not persuaded by
Robles’s arguments. We hold that § 666 does not require that Robles intended to be influenced in an official act. We thus affirm Robles’s § 666 bribery convictions.
IV.
IN SUM:
We REVERSE Robles’s § 1346 honest services
fraud convictions with respect to Counts 1 through
11, 13 through 15, 17, and 23 through 25, and Garrido’s § 1346 honest services fraud convictions with
respect to Counts 23 through 25 because, under Skilling, the jury instructions erroneously permitted convictions on the unconstitutional theory of a failure to
disclose a conflict of interest.

15 It may simply be the case that in referring to “official duties,” the Second Circuit “was not positing an additional element
to the statutory definition of the crime, but instead was explaining the sine qua non of a violation of § 666.” United States v.
Agostino, 132 F.3d 1183, 1190 (7th Cir.1997) (explaining that
although a prior Seventh Circuit case referred to a “ ‘quid pro
quo’ ” as being an “ ‘essential element’ ” of § 666, the “elements
of the offense remain those that are set forth in the statutory
language” (citation omitted)). As a practical matter, most bribery cases “involve an identifiable and particularized official act,
but that is not required to convict” under § 666. McNair, 605
F.3d at 1188; Gee, 432 F.3d at 714 (“A quid pro quo of money for
a specific legislative act is sufficient to violate [18 U.S.C. § 666],
but it is not necessary.”).

B35

We REVERSE Robles’s § 1346 honest services
fraud convictions with respect to *1003 Counts 16,
22, and 27 and Garrido’s § 1346 honest services fraud
convictions with respect to Counts 22 and 27, and
ACQUIT Robles on Counts 16, 22, and 27 and ACQUIT Garrido on Counts 22 and 27 because these
counts are based on Skilling’s unconstitutional theory of a failure to disclose a conflict of interest in a
state disclosure form, and because there is insufficient evidence to support Counts 16 and 27.
We REVERSE Robles’s § 1957 money laundering
convictions with respect to Counts 18 through 21 because they are predicated on the flawed honest services fraud convictions.
We AFFIRM Robles’s § 666 bribery convictions
with respect to Counts 33 through 37 because § 666
convictions do not require the defendant intended to
be influenced in an official act.
We REMAND this case to the District Court for
further proceedings consistent with this opinion.
Thus, United States v. Garrido, No. 06–50717, is
REVERSED and REMANDED; and United States
v. Robles, No. 06–50718, is REVERSED in part,
AFFIRMED in part, and REMANDED.

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNITED STATES OF
AMERICA,
Plaintiff,
v.
ALBERT ROBLES,
Defendant.

Case No. CR 04-1594
SVW
ORDER DENYING
DEFENDANT’S MOTION FOR
NEW TRIAL OR
RECONSIDERATION
[403]

I. Background
Following a jury trial in 2005, defendant was convicted of twenty-one counts of honest services mail
and wire fraud in violation of 18 U.S.C. §§ 1341,
1343, 1346 (Counts 1-11, 13-17, 22-25, and 27 of the
redacted Second Superseding Indictment); four
counts of money laundering in violation of 18 U.S.C. §
1957 (Counts 18-21); and five counts of bribery in violation of 18 U.S.C. § 666 (Counts 33-37). The factual
background of these convictions is described in the
Court of Appeals’ opinion in this case. United States
v. Garrido, 713 F.3d 985, 989-92 (9th Cir. 2013), cert.
denied, 134 S. Ct. 1333 (2014). Of relevance here are
defendant’s convictions for accepting bribes while he
was Treasurer of the City of South Gate in connection
with the city’s decision to award a waste-hauling contract.
(C1)

C2

Following the jury’s verdict, defendant filed a motion for a new trial pursuant to Federal Rule of Criminal Procedure 33. The Court denied the motion on
August 29, 2006. (Dkt 273 (“Prior New Trial Order”).)
On November 28, 2006, the Court sentenced defendant to concurrent terms of 60 months on each of
Counts 1-11, 13-15, 22-23, and 27 and concurrent
terms of 120 months on each of Counts 16-17, 18-21,
and 33-37. (Dkt 323.) Judgment was entered on December 14, 2006, and defendant appealed.
While defendant’s appeal was pending before the
Ninth Circuit, the United States Supreme Court issued an opinion in Skilling v. United States, 561 U.S.
358 (2010) that undermined the basis for defendant’s
convictions for honest services fraud. The Supreme
Court held that 18 U.S.C. § 1346 applies only to honest services fraud based on bribery and kickback
schemes, and not to the kind of fraud that was alleged in this case, which was based on defendant’s
failure to disclose a conflict of interest. Skilling, 561
U.S. at 408-410; Garrido, 713 F.3d at 988. The Court
of Appeals accordingly reversed defendant’s convictions for honest services fraud. Garrido, 713 F.3d at
1002-1003. Specifically, the Circuit reversed defendant’s convictions on Counts 1-11, 13-15, 17, and 23-25
because the jury instructions at trial permitted the
jury to convict defendant on the impermissible theory
that he failed to disclose a conflict of interest. Id. at
1002. As for defendant’s convictions on Counts 16, 22,
and 27 for honest services fraud, the Court of Appeals
both reversed the convictions and acquitted defendant on those three counts, because they were based
on the theory that defendant failed to disclose a con-

C3

flict of interest on a state disclosure form. Id. at 10021003. The Circuit also reversed defendant’s four
money laundering convictions (Counts 18-21) because
they were based on the invalid convictions for honest
services fraud. Id. at 1003.
Defendant’s five bribery convictions under 18
U.S.C. § 666 (Counts 33-37) were affirmed. The indictment charged that defendant “corruptly accepted
and agreed to accept . . . payments for goods and services and campaign contributions from Michael
Klistoff and All City Services, intending to be influenced and rewarded in connection with a transaction
of [the City of South Gate] . . . namely, the awarding
of a multiple-year refuse collection and recycling contract in South Gate worth approximately $48 million.” Counts 33-37 were based on evidence that in
2000 and 2001, at defendant’s request, Klistoff
bought a personal computer for defendant, paid
printing and copying costs on behalf of defendant or
his political campaign committee, and paid for part of
an automated telephone dialing system that was installed in defendant’s home and that could be used either for telemarketing or for political campaigns.
The Court of Appeals rejected defendant’s argument that a conviction under § 666 requires a “quid
pro quo,” i.e., that the thing of value that is given “be
given or received with the intent to influence the public official in an official act.” Garrido, 713 F.3d at
1001 & n.13 (emphasis added). Defendant argued
that § 666 required the government to prove that he
intended to be influenced in connection with an official act as Treasurer. The Court of Appeals rejected
this argument as “confus[ing] influence with the

C4

power to act unilaterally.” Id. at 999 (citation and internal quotation marks omitted). The evidence at trial showed that defendant used his “considerable influence” within city government in an attempt to improve Klistoff’s chances of being awarded the wastehauling contract. Id. at 1000.
The court upheld the bribery convictions because,
based on this evidence, the jury “could reasonably
find that Robles intended to be influenced in connection with the city’s award of the waste-hauling contract even though the authority to award the contract
was not part of Robles’s official duties.” Id. at 9991000.
Defendant filed a petition for rehearing arguing
that the bribery convictions implicated his First
Amendment rights, because as interpreted by the
panel, § 666 subjects candidates for political office to
prosecution for bribery even when they accept campaign contributions without a quid pro quo. (Ninth
Circuit Case No. 06-50718, ECF No. 165-1 (“PFR”) at
1.)1 Defendant’s argument relied heavily on United
States v. McCormick, 500 U.S. 257 (1991), which
overturned the conviction of an elected official for extortion in violation of the Hobbs Act, 18 U.S.C.
§ 1951. McCormick was a member of the West Virginia state legislature. He supported a state licensing
1 Defendant also made this argument in his opening brief on
appeal, although there he focused on the honest services fraud
counts, which defendant argued were partially based on the
government’s theory that defendant had accepted bribes. (See
ECF No. 60-1 at 29-33.) All citations to “ECF No.” in this order
refer to the Ninth Circuit docket in defendant’s appeal, Case No.
06-50718.

C5

program that permitted doctors who had graduated
from foreign medical schools to practice in the state.
(The program was intended to ameliorate the effects
of a shortage of doctors.) During a reelection campaign, McCormick solicited contributions from an organization of foreign-licensed doctors. Following his
reelection, he successfully sponsored legislation permitting experienced doctors to be permanently licensed without passing state licensing exams. Id. at
259-60. He was subsequently indicted for violating
the Hobbs Act by “extorting payments under color of
official right.” Id. at 261.2
McCormick required the Supreme Court to address the meaning of the words “under color of official
right” in the Hobbs Act. The Supreme Court reasoned
that if the payments to McCormick were campaign
contributions, as he contended, then criminalizing
them “would open to prosecution not only conduct
that has long been thought to be well within the law
but also conduct that in a very real sense is unavoidable so long as election campaigns are financed by
private contributions or expenditures . . . .” Id. at 272.
The Court concluded that “to hold that legislators
commit the federal crime of extortion when they act
for the benefit of constituents or support legislation
furthering the interests of some of their constituents,
shortly before or after campaign contributions are solicited and received from those beneficiaries, is an

2 The Hobbs Act defines extortion as “the obtaining of property from another, with his consent, induced by wrongful use of
actual or threatened force, violence, or fear, or under color of official right.” 18 U.S.C. § 1951(b)(2).

C6

unrealistic assessment of what Congress could have
meant” in enacting the Hobbs Act. Id. Nevertheless,
the Court acknowledged, an elected official may still
“commit extortion in the course of financing an election campaign, . . . but only if the payments are made
in return for an explicit promise or undertaking by
the official to perform or not to perform an official
act.” Id. at 273. Therefore, proof of a quid pro quo is
essential for an extortion conviction under the Hobbs
Act. Id. at 273-74.
In his petition for rehearing in the Ninth Circuit,
defendant argued that McCormick’s rationale “cuts
across all bribery laws because it is grounded in the
role campaign contributions play in American democracy.” (PFR at 1.) Because of the nature of political
campaigns, to prove bribery under 18 U.S.C. § 666
when the thing of value that was provided is a campaign contribution, the government should have to
“establish an explicit agreement to exchange the contribution for an act performed by the public official.”
(Id. at 7.) On October 3, 2013, the panel denied defendant’s petition for rehearing and reported that no
judge requested a vote on whether to rehear the matter en banc. The mandate issued on December 27,
2013.
Defendant filed a petition for writ of certiorari in
the United States Supreme Court on December 31,
2013. The petition was denied on February 24, 2014.
Robles v. United States, 134 S. Ct. 1333 (2014).
At a status conference on March 17, 2014, defendant indicated that a computer had recently been located that was related to one of the bribery counts,

C7

and indicated his intention to file a motion for a new
trial. The Court set a schedule for inspecting the
computer and briefing the motion. Two weeks before
defendant filed his motion, the United States Supreme Court issued an opinion that defendant contends provides additional support for his request for a
new trial. In McCutcheon v. Federal Election
Comm’n, 134 S. Ct. 1434 (Apr. 2, 2014), the Supreme
Court struck down certain campaign contribution
limits imposed by the Bipartisan Campaign Reform
Act of 2002 (“BRCA”). See 2 U.S.C. § 441a(a)(3). Although there was no opinion for the Court, a fourjustice plurality concluded that aggregate limits on
an individual’s total contributions to all candidates
for federal office within a two-year election cycle “seriously restrict[] participation in the democratic process [and] are therefore invalid under the First
Amendment.” Id. at 1442 (Roberts, C.J.) Providing
the fifth vote to invalidate these limits, Justice
Thomas would simply have found them invalid under
a strict scrutiny test. Id. at 1464 (Thomas, J., concurring in the judgment) (arguing that Buckley v. Valeo,
424 U.S. 1 (1976) (per curiam) should be overruled).
As discussed below, defendant argues that McCutcheon supports his argument that his bribery convictions are invalid.
II. Defendant’s Motion for New Trial or Reconsideration
Count 33 of the indictment alleged that Klistoff reimbursed defendant $2,878.09 for the purchase of a
computer. Defendant claims that he tried to locate
this computer in preparation for his trial in 2005 but
was unsuccessful. After being released from prison

C8

following the Court of Appeals’ decision, however, he
found it “buried among some clothing and other
items” that “had been stored in various locations”
while he was incarcerated. (Dkt 403-2: Robles Decl. ¶
6.) His attorney then had the hard disk removed and
examined by a forensic computer examiner. The examiner reports that the hard disk contains “a variety
of software packages and data files suggestive of
campaign or voting-related applications.” (Dkt 403-1:
Kaloyanides Decl. Ex. B at 1.) Defendant argues that
this recently discovered evidence shows that Klistoff’s
payment to defendant was a campaign contribution,
not just a personal gift. This matters, according to defendant, because “campaign contributions are entitled to more protection than other payments to elected officials.” (Mot. at 1.) This new evidence allegedly
undermines the factual basis for the jury’s guilty verdict on Count 33.
In contrast to Count 33, Counts 34-37 of the indictment were based on Klistoff’s payments of certain
expenses that the jury could reasonably have concluded, based on the evidence at trial, were related to
defendant’s political campaign committee, and thus
were at least in part campaign contributions. (See
Prior New Trial Order at 33-38 (discussing this evidence in context of Counts 22 and 27).) But there was
no evidence about the purpose of the computer that is
the basis of Count 33. (See id. at 35-36.) The jurors
learned only that defendant had purchased it at the
Fry’s Electronics store in Burbank on January 17,
2000 for $2,878.09, and that Klistoff reimbursed him
for this amount. The computer was apparently delivered to defendant’s home rather than his office but

C9

there was no testimony about how it was used. (Id. at
36.)
Although defendant characterizes his motion as a
request for a new trial or reconsideration based on
“newly discovered evidence,” in fact the motion appeals both to the new evidence about the computer
and to defendant’s legal argument that to be convicted of bribery, the government must prove either that
the “things of value” that were the subject of the
bribery counts were not campaign contributions, or
that as campaign contributions, they were solicited in
exchange for a specific official act. (Reply at 10-11.)
In other words, defendant asserts, the government
must prove the existence of some quid pro quo in order to obtain bribery convictions on Counts 33
through 37. (Mot. at 21.) Armed with this newly discovered evidence supporting his contention that all of
Klistoff’s payments were campaign contributions, defendant argues he should receive a new trial at which
a properly instructed jury would determine whether
defendant requested payments from Klistoff to his
political campaign in exchange for some official act.
(Mot. at 21.)
III. The Motion is Untimely.
Defendant’s motion for a new trial is barred by
Federal Rule of Criminal Procedure 33(b)(1), which
requires that “[a]ny motion for a new trial grounded
on newly discovered evidence must be filed within 3
years after the verdict . . . .” This motion comes more
than eight years after the verdict and the government has invoked the timeliness bar. That is the end
of the matter. Eberhart v. United States, 546 U.S. 12,

C10

19 (2005) (per curiam) (Rule 33 is not jurisdictional
but is an inflexible claim-processing rule that bars
new trial motion unless government forfeits objection); see also United States v. Shelton, 459 F.2d
1005, 1006-1007 (9th Cir. 1972) (change in the law
does not qualify as “newly discovered evidence” under
Rule 33).
As an alternative to Rule 33, defendant asks the
Court to reconsider its prior denial of his motion for a
new trial under Local Civil Rule 7-18. Although this
rule does not by its terms apply to criminal cases, a
court always retains the inherent authority “to reconsider an order over which it has not been divested of
jurisdiction.” United States v. Smith, 389 F.3d 944,
949 (9th Cir. 2004); City of Los Angeles v. Santa Monica Baykeeper, 254 F.3d 882, 888 (9th Cir. 2001). But
the power to reconsider prior orders must be exercised consistently with the law of the case doctrine.
See United States v. Hauser, 804 F.2d 565, 567 (9th
Cir. 1986). “Upon remand, an issue decided by an appellate court may not be reconsidered.” Id. The Ninth
Circuit has identified the limited circumstances under which a lower court may reopen a previously resolved question as: (1) the prior decision was clearly
erroneous; (2) an intervening change in the law has
occurred; (3) the evidence on remand is substantially
different; (4) other changed circumstances exist; or
(5) a manifest injustice would otherwise result.
Thomas v. Bible, 983 F.2d 152, 155 (9th Cir. 1993). In
effect, defendant’s argument here is that McCutcheon
changed the law and that the evidence on remand —
the newly discovered computer containing campaignrelated software — is substantially different. Neither

C11

is true. As discussed below, McCutcheon did not
change the law of bribery. And while the new evidence may place the computer in a different light, it
does not alter the fact that the indictment charged
and the jury knew that some or all of the other payments by Klistoff referenced in Counts 34-37 were
campaign contributions.
Defendant also appeals to the Court’s authority to
grant relief from a judgment under Federal Rule of
Civil Procedure 60(b). Many courts have said that
motions for reconsideration may be filed in criminal
cases notwithstanding the absence of a general rule
of criminal procedure permitting such motions, and
have imported the standard governing motions for
reconsideration under Federal Rules of Civil Procedure 59 and 60(b). See, e.g., United States v. Fiorelli,
337 F.3d 282, 286 (3d Cir. 2003). This innovation has
its genesis in motions to vacate sentences under 28
U.S.C. § 2255. See id.; United States v. Martin, 226
F.3d 1042, 1047 n.7 (9th Cir. 2000). But § 2255 motions are post-judgment motions governed by a specific set of rules and legal doctrines analogous to the
rules governing habeas corpus petitions by prisoners
in state custody. Compare 28 U.S.C. § 2255 with 28
U.S.C. § 2254. In contrast to other proceedings in a
criminal case, the Rules Governing Section 2255 Proceedings for the United States District Courts explicitly permit application of the Federal Rules of Civil
Procedure (along with the Rules of Criminal Procedure) to § 2255 proceedings. Rule 12, 28 U.S.C. foll. §
2255. Applying Federal Rule of Civil Procedure 60(b)
to something that is effectively a new trial motion in
order to evade time limits explicitly imposed by Rule

C12

33 would ignore the Supreme Court’s teaching that
whatever the scope of the federal courts’ “inherent
power” may be, “it does not include the power to develop rules that circumvent or conflict with the Federal Rules of Criminal Procedure.” Carlisle v. United
States, 517 U.S. 416, 426 (1996).
In addition, both Criminal Rule 33 and Civil Rule
60(b), as well as Local Civil Rule 7-18, all require
proof of a party’s diligence before a court may grant
relief from a judgment based on newly discovered evidence. United States v. Harrington, 410 F.3d 598,
601 (9th Cir. 2005) (“To prevail on a Rule 33 motion
for a new trial based on newly discovered evidence,
. . . the failure to discover the evidence sooner must
not be the result of a lack of diligence on the defendant’s part); Fed. R. Civ. P. 60(b)(2) (relief may be
granted on basis of “newly discovered evidence that,
with reasonable diligence, could not have been discovered in time to move for a new trial under [Civil]
Rule 59(b)”); Local Civil Rule 7-18 (motion may be
based on “material difference in fact or law from that
presented to the Court before such decision that in
the exercise of reasonable diligence could not have
been known to the party moving for reconsideration
at the time of such decision”).
Here, defendant has not demonstrated diligence.
He says he gave the computer to his girlfriend,
Alejandra Jaramillo, in 2003. Around the time of trial
in 2005, he asked her where it was but she could not
find it. Then, in 2012, Jaramillo told him she had
found the computer and put it in some unspecified
“safe place.” (Dkt 403-2: Jaramillo Decl. ¶ 5; Robles
Decl. ¶ 4.) Later, after defendant was released on

C13

bond in November 2013, he says he “retrieved my
personal belongings that had been stored in various
locations . . . [and] found the computer buried among
some clothing and other items.” (Robles Decl. ¶ 6.)
Defendant provides no explanation for how the computer left Jaramillo’s “safe place” and then miraculously reappeared in one of the “various locations”
where defendant stored his personal belongings while
incarcerated. He describes no efforts to locate the
computer at the time of trial aside from a single unspecified inquiry to Jaramillo. Jaramillo says, “I was
not able to locate the computer, and I could not recall
what had become of it.” (Jaramillo Decl. ¶ 4.) But she
does not explain what efforts she made to look for the
computer, if any. Nor does defendant say whether he
asked Jaramillo to undertake a thorough search for
this evidence. Defendant also provides no explanation
for why he did not call Jaramillo at trial to testify
that she was given the computer and lost it, and no
explanation for why he did not attempt to introduce
any other evidence at trial regarding the purpose of
the computer. Moreover, if defendant used the computer for political campaigning, then he knew this
and presumably also knew the computer contained
campaign-related software. Under these circumstances, it is doubtful that the computer constitutes
“newly discovered evidence” within the meaning of
Rule 33, rather than simply “newly available evidence.” Cf. United States v. Owens, 500 F.3d 83, 8791 (2d Cir. 2007) (“newly discovered” in Rule 33 does
not mean “newly available”: where defendant was
aware that co-defendant could offer material testimony but co-defendant refused to testify, that testimony did not become “newly discovered” after trial).

C14

IV. The Motion is Meritless.
Even if defendant’s motion were timely, it could
not succeed on the merits. The conceptual flaw in the
motion is revealed by its focus on the need for a quid
pro quo showing to support a bribery conviction under § 666. Defendant must press this argument because without it, his new evidence is plainly not material. Under the legal standard for a § 666 conviction
on which the jury was instructed at trial, it did not
matter whether Klistoff’s payments were personal
gifts or campaign contributions. They simply needed
to be “something of value.” Cf. 18 U.S.C. §
866(a)(1)(B) (“anything of value”).3 The indictment
lumped the five counts together as all involving
“payments for goods and services and campaign contributions.” (Indictment Counts 33-37.) The jury was
instructed that to convict defendant of bribery in violation of 18 U.S.C. § 666, the government had to
prove these four elements:
(1) The City of South Gate is a local government agency;
(2) Defendant was an agent of the City;

3 In contrast, the distinction between gifts and campaign contributions was relevant to the honest services fraud convictions,
because defendant was required to report gifts on California’s
Form 700 but not campaign contributions. (See Prior New Trial
Order at 33-38.) Defendant seizes on language in the Court’s
prior order as evidence of the importance of this distinction to
the bribery convictions, but that discussion focused on the evidence supporting the convictions on Counts 22 and 27, not
Counts 33-37.

C15

(3) Defendant “corruptly solicited, demanded, accepted, or agreed to accept, something of
value with the intent to be influenced or rewarded . . . in connection with any business,
transaction, or series of transactions of the
City of South Gate having a value of $5,000 or
more; and
(4) The City received benefits in excess of
$10,000 in federal funds in any single year.
Only the third element was in dispute. The jury
was told that to act corruptly “means simply to act
voluntarily and intentionally with an improper motive or purpose to be influenced or rewarded,” and requires “a bad or evil state of mind.” The jury was also
told that it was defendant’s intent to be influenced or
rewarded that was important, “not the subsequent
actions of defendant or the City of South Gate.” The
Court of Appeals affirmed that the government was
not required to show that defendant solicited the
funds in “exchange for a specific official act.” Garrido,
713 F.3d at 1001 n.13. Thus, under the legal theory
on which the bribery convictions are based, it made
no difference whether defendant could show that all
of Klistoff’s payments were campaign contributions.
If defendant is correct, however, that constitutional protections for political campaign activities require
a quid pro quo element for a § 666 conviction, then
the status of Klistoff’s payments would matter. And if
the new evidence shows that the reimbursement for
the computer was a campaign contribution, then the
jury should have been instructed on the need to find
a quid pro quo. But defendant made this argument

C16

on appeal and the Ninth Circuit rejected it. Garrido,
713 F.3d at 999-1002; (see also ECF No. 124 (Appellant’s Supp. Br.) at 26-27; PFR at 6-18.) This Court
has no authority to reconsider the Ninth Circuit’s decision.
Defendant cites the recent decision of the United
States Supreme Court in McCutcheon in support of
his argument. He does not explicitly urge the Court
to disregard prior circuit court authority on the elements of a § 666 offense on the basis of McCutcheon,
but this is the import of his argument. Unless
McCutcheon changed the law, the Ninth Circuit’s affirmance of the bribery convictions and rejection of
defendant’s quid pro quo argument is law of the case.
Hall v. City of Los Angeles, 697 F.3d 1059, 1067 (9th
Cir. 2012) (“The law of the case doctrine . . . generally
preludes a court from reconsidering an issue decided
previously by the same court or by a higher court in
the identical case.”). The holding of McCutcheon is
contained in the Chief Justice’s opinion for the plurality, which rests on narrower grounds than Justice
Thomas’s concurrence. See Marks v. United States,
430 U.S. 188, 193 (1977); cf., e.g., Dickens v. Brewer,
631 F.3d 1139, 1145 (9th Cir. 2011) (plurality opinion
was the narrowest concurrence necessary to secure a
majority). The Chief Justice explained that the
Court’s campaign finance decisions since Buckley v.
Valeo have recognized that Congress “may regulate
campaign contributions to protect against corruption
or the appearance of corruption.” McCutcheon, 134 S.
Ct. at 1441 (Roberts, C.J., concurring). Nevertheless,
any campaign finance regulation must “target what
we have called ‘quid pro quo’ corruption or its ap-

C17

pearance,” i.e., “the notion of a direct exchange of an
official act for money.” Id. “The line between quid pro
quo corruption and general influence may seem
vague at times, but the distinction must be respected
in order to safeguard basic First Amendment rights.”
Id. at 1451.
This Court may disregard the Ninth Circuit’s decision in Garrido only if McCutcheon “is clearly irreconcilable with . . . prior circuit authority.” Miller v.
Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en banc).
It is not. Even if McCutcheon departed from existing
precedent, as the four dissenting justices charged,4 by
announcing that campaign finance regulations may
target only quid pro quo corruption, the Court’s holding by its own terms applies to the field of campaign
finance regulation, not to every civil and criminal
statute pertaining to government officials. A § 666
conviction requires proof that the defendant, while an
agent of a state or local government, “corruptly” solicited or agreed to accept something of value “intending
to be influenced or rewarded in connection with”
some transaction of that government worth more
than $5,000. 18 U.S.C. § 666. This criminal statute is
a far cry from a campaign finance regulation. Nor
does McCutcheon represent a sea change in the law.
The theory that the only “sufficiently important governmental interest in preventing corruption or the
appearance of corruption” that could justify limits on
political expenditures is “limited to quid pro quo corruption” was endorsed four years ago in the Supreme
4 McCutcheon, 134 S. Ct. at 1466, 1470-71, 1481 (Breyer, J.,
dissenting).

C18

Court’s decision in Citizens United v. Federal Election
Comm’n, 558 U.S. 310 (2010), and criticized by the
dissenting justices. Compare id. at 359-61 (“An outright ban on corporate political speech during the
critical preelection period is not a permissible remedy
. . . [because it is] asymmetrical to preventing quid
pro quo corruption.”) with id. at 447-48 (Stevens, J.,
dissenting) (“This is the same ‘crabbed view of corruption’ that was . . . squarely rejected by the Court
in [a 2003] case.”). The Court’s recent decision in
McCutcheon did not so alter the legal landscape that
existed before October 3, 2013 — when the Ninth
Circuit denied defendant’s motion for rehearing — as
to merit reconsideration of Garrido’s holding that a
bribery conviction under 18 U.S.C. § 666 does not require proof of a quid pro quo arrangement. Under
that holding, defendant’s newly discovered evidence
that the computer had campaign-related software on
it is simply not material to the question of whether
the computer was “something of value” that defendant solicited from Klistoff with the intent to be influenced in connection with the City of South Gate’s
award of a waste-hauling contract.
V. Conclusion
A motion for reconsideration of this Court’s prior
order denying defendant’s 2005 motion for a new trial
cannot be used to circumvent the time limit in Rule
33 or evade the mandate of the Court of Appeals. The
Court of Appeals affirmed defendant’s bribery convictions and remanded the case for further proceedings
consistent with that judgment. Those proceedings
might include a retrial of the charges on which defendant was not acquitted, they do not include revis-

C19

iting the bribery convictions. Hall, 697 F.3d at 1067
(“A district court that has received the mandate of an
appellate court cannot vary or examine that mandate
for any purpose other than executing it.”).
VI. Order
For the foregoing reasons, defendant’s motion for a
new trial and alternative motion for reconsideration
are hereby DENIED.
IT IS SO ORDERED.
Dated: June17, 2014
s/ Stephen V. Wilson
STEPHEN V. WILSON
United States District Judge

APPENDIX D
698 Fed.Appx. 905
This case was not selected for publication in West’s
Federal Reporter. See Fed. Rule of Appellate Procedure 32.1 generally governing citation of judicial decisions issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals,
Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Albert T. ROBLES, Defendant-Appellant.
No. 15-50133
Argued and Submitted October 2, 2017 Pasadena,
California
Filed October 11, 2017
Appeal from the United States District Court for
the Central District of California, Stephen V. Wilson,
District Judge, Presiding, D.C. No. 2:04-cr-1594-SVW
Before: M. SMITH and NGUYEN, Circuit Judges,
and SETTLE, District Judge.*

* The Honorable Benjamin H. Settle, United States District
Judge for the Western District of Washington, sitting by designation.

(D1)

D2

MEMORANDUM**
Defendant-Appellant Albert Robles (“Robles”) appeals the district court’s denial of his motion for a
new trial or, in the alternative, motion for reconsideration. We review both denials for an abuse of discretion. *906 United States v. Hinkson, 585 F.3d
1247, 1259 (9th Cir. 2009) (en banc) (motion for a
new trial based on newly discovered evidence); United States v. Lopez-Cruz, 730 F.3d 803, 811 (9th Cir.
2013) (motion for reconsideration). We have jurisdiction pursuant to 28 U.S.C. § 1291, and we affirm.
1. “Any motion for a new trial grounded on newly
discovered evidence must be filed within 3 years after
the verdict or finding of guilty.” Fed. R. Crim. P.
33(b)(1). Although the time bar is not jurisdictional,
the rule “assure[s] relief to a party properly raising
[it].” Eberhart v. United States, 546 U.S. 12, 19, 126
S.Ct. 403, 163 L.Ed.2d 14 (2005). The Government
properly raised the time bar and is entitled to such
relief because Robles filed his motion more than three
years after the verdict. Therefore, the district court
properly denied Robles’s motion for a new trial based
on newly discovered evidence.
2. The district court denied Robles’s motion for reconsideration after finding that Robles was not diligent in presenting the evidence and that the evidence
was “newly available” instead of “newly discovered.”
Robles fails to show any error in either of these findings, much less an abuse of discretion. Therefore, the
** This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

D3

district court properly denied Robles’s motion for reconsideration.
3. Even if we reached the merits of Robles’s motion, Robles fails to show that he is entitled to relief.
In United States v. Garrido, 713 F.3d 985 (9th Cir.
2013), this court established the law of the case by affirming Robles’s conviction for bribery in violation of
18 U.S.C. § 666. A three-judge panel is bound by the
prior authority unless “the reasoning or theory of our
prior circuit authority is clearly irreconcilable with
the reasoning or theory of intervening higher authority.” Miller v. Gammie, 335 F.3d 889, 893 (9th Cir.
2003) (en banc). On the interpretation of § 666, Garrido is not clearly irreconcilable with either
McCutcheon v. Fed. Election Comm’n, –––U.S. ––––,
134 S.Ct. 1434, 188 L.Ed.2d 468 (2014), or McDonnell
v. United States, ––– U.S. ––––, 136 S.Ct. 2355, 195
L.Ed.2d 639 (2016), because these intervening higher
authorities addressed the interpretation of statutes
other than § 666.
AFFIRMED.

APPENDIX E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. 2:15-cv-00207-SVW/2:04-cr-01594(B)-SVW
Date July 25, 2018
Title Albert T. Robles v. United States
Present: The Honorable STEPHEN V. WILSON,
U.S. DISTRICT JUDGE
Paul M. Cruz

N/A

Deputy Clerk

Court Reporter/Recorder

Attorneys Present for Plaintiffs:
N/A
Attorneys Present for Defendants:
N/A
Proceedings: IN CHAMBERS ORDER LIFTING
STAY AND DENYING § 2255 MOTION [24]
Having read and considered the papers, the Court
GRANTS Petitioner’s request to lift the stay on his §
2255 proceedings and DENIES Petitioner’s § 2255
petition for the reasons set forth in the government’s
opposition to Petitioner’s motion.

(E1)

E2

On January 12, 2015, federal inmate Albert T. Robles (“Petitioner”) filed a petition to vacate, set aside,
or correct a sentence pursuant to 28 U.S.C. § 2255.
Dkt. 1. Prior to the Court ruling on Petitioner’s
§ 2255 petition, Petitioner asked that the court stay
the petition pending resolution of his Ninth Circuit
appeal of the denial of his motion for new trial and
his resentencing. Dkt. 19. This Court granted Petitioner’s request for a stay on May 15, 2015. Dkt. 20.
On March 8, 2018, Petitioner filed a request to lift
the stay on his § 2255 proceedings and requested the
Court to accept a supplemental filing to his § 2255
petition. Dkt. 24. In this motion, Petitioner also requests that the Court hold an evidentiary hearing.
Dkt. 24. In response, the government agrees that the
stay on Petitioner’s § 2255 proceedings should be lifted. Dkt. 26. The government also argues that Petitioner’s request for an evidentiary hearing, as well as
his § 2255 petition, should be denied. Dkt. 26.
The Court GRANTS Petitioner’s request to lift the
stay on his § 2255 petition. The Court also DENIES
Petitioner’s § 2255 petition because, as the government notes, a § 2255 petition cannot be based on a
claim that has already been disposed of by direct appeal of the underlying criminal judgment.1 Petitioner

When a defendant has raised a claim and has been given a
full and fair opportunity to litigate it on direct appeal, that
claim may not be used for a subsequent § 2255 petition.” United
States v. Hayes, 231 F.3d 1132, 1139 (9th Cir. 2000); see also
United States v. Berry, 624 F.3d 1031, 1038 (9th Cir. 2010)
(“[T]he [Supreme] Court has cautioned that § 2255 may not be
used as a chance at a second appeal.”); Olney v. United States,
433 F.2d 161, 162 (9th Cir. 1970) (“[h]aving raised this point un1

E3

contends that a conviction for bribery under 18
U.S.C. § 666 requires proof of a quid pro quo in cases
involving campaign contributions. In its opposition,
the government argues that United States v. Garrido,
713 F.3d 985 (9th Cir. 2013) forecloses Petitioner’s
argument because Garrido established the law of Petitioner’s case by affirming Petitioner’s § 666 convictions. Dkt. 26. Garrido held that “‘[t]he requirement
of a ‘corrupt’ intent in § 666 . . . narrow[s] the conduct
that violates § 666 but does not impose a specific quid
pro quo requirement.” Garrido, 713 F.3d at 1002 (citing United States v. McNair, 605 F.3d 1152, 1188
(11th Cir. 2010) (concluding that § 666 does not require a quid pro quo)). In so holding, the Garrido
court rejected Petitioner’s argument that § 666 convictions require proof of a quid pro quo in cases involving campaign contributions. Id. Petitioner “has
been given a full and fair opportunity to litigate [the
quid pro quo argument] on direct appeal.” United
States v. Hayes, 231 F.3d 1132, 1139 (9th Cir. 2000).
Having raised this argument “unsuccessfully on direct appeal, [Petitioner] cannot now seek to relitigate
it as part of a petition under § 2255.” Olney v. United
States, 433 F.2d 161, 162 (9th Cir. 1970).2
successfully on direct appeal, appellant cannot now seek to relitigate it as part of a petition under § 2255.”).
If the Court were to reach the merits of Petitioner’s underlying ineffective assistance of counsel claims, those claims would
also be denied for two reasons. First, counsel’s failure to argue a
quid pro quo requirement and failure to request a quid pro quo
jury instruction did not “fall outside the wide range of professionally competent services.” Strickland, 466 U.S. at 68790. Second, counsel’s failure to raise a quid pro quo argument and failure to request a quid pro quo jury instruction did not prejudice
2

E4

With respect to Petitioner’s request for an evidentiary hearing, the government notes that Petitioner
has failed to submit a declaration from any witness
indicating that the witness is willing to testify, or
that the witness would testify as Petitioner asserts.
Dkt. 9. The government also notes that Petitioner’s
supplemental filings reiterate the same arguments as
those made in his § 2255 petition and none of the new
authorities Petitioner cites in his supplemental filing
are intervening higher authorities that have come after the Ninth Circuit’s most recent review of Petitioner’s § 666 convictions. Dkt. 26, at 5. Where a defendant has asserted “no more than conclusory allegations, unsupported by facts and refuted by the record, an evidentiary hearing is not required.” United
States v. Quan, 789 F.2d 711, 715 (9th Cir. 1986). Accordingly, the Court DENIES Petitioner’s request for
an evidentiary hearing.
IT IS SO ORDERED.

Petitioner. Id. An ineffective assistance of counsel claim premised on counsel’s failure to raise an argument must show that
the argument was likely to be successful. See Juan H. v. Allen,
408 F.3d 1262, 1273 (9th Cir. 2005) (“trial counsel cannot have
been ineffective for failing to raise a meritless objection”). A defendant has no constitutional right to compel counsel to raise
particular claims if counsel, as a matter of professional judgment, decides not to present those issues. See Jones v. Barnes,
463 U.S. 745, 751 (1983) (declining to promulgate “a per se rule
that the client, not the professional advocate, must be allowed to
decide what issues are to be pressed”).

APPENDIX F
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Albert T Robles,
PETITIONER
v.

CASE NUMBER
2:15-cv-00207-SVW

ORDER RE: CERTIFIUnited States of America, CATE OF APPEALABILRESPONDENT.
ITY
On 9/12/18,Petitioner filed a Notice of Appeal and
a request for a Certificate of Appealability pursuant
to 28 U.S.C. § 2253. The Court has reviewed the matter.
IT IS HEREBY ORDERED:
Ō The Certificate of Appealability is GRANTED.
The specific issues) satisfy §2253(c)(2) as follows:
Ō The Certificate of Appealability is DENIED for
the following reason(s):
Ō There has been no substantial showing of the
denial of a constitutional right.
Ō The appeal seeks to test the validity of a warrant
to remove to another district or place for commitment
or trial.
Ō The appeal seeks to test the validity of the detention pending removal proceedings.
9/13/18
Date

s/Stephen V. Wilson
United States District Judge
(F1)

